Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


THE REPUBLIC OF ZAMBIA, MINISTRY
  OF HEALTH, DID NOT ALWAYS
    MANAGE THE PRESIDENT’S
EMERGENCY PLAN FOR AIDS RELIEF
FUNDS OR MEET PROGRAM GOALS IN
    ACCORDANCE WITH AWARD
         REQUIREMENTS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        June 2014
                                                      A-04-13-04004
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

 The Republic of Zambia, Ministry of Health, did not always manage the President’s
 Emergency Plan for AIDS Relief funds or meet program goals in accordance with award
 requirements. Of the $516,029 in expenditures reviewed, $290,575 was not allowable.

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs implemented under the Act,
including PEPFAR. To meet this requirement, HHS OIG has conducted a series of audits of
organizations receiving PEPFAR funds from HHS, Centers for Disease Control and Prevention
(CDC). We selected the Republic of Zambia, Ministry of Health (the Ministry), for review.

The objective of our audit was to determine whether the Ministry managed PEPFAR funds and
met program goals in accordance with the award requirements.

BACKGROUND

Through a 5-year cooperative agreement (grant number 5U2GPS001792), CDC awarded
PEPFAR funds totaling $3,705,000 to the Ministry for the budget period September 30, 2010,
through September 29, 2011.

The Ministry’s mission is to provide equitable access to affordable, accessible, quality health
services. The Ministry entered into a cooperative agreement with CDC to implement a
coordinated national response to the HIV/AIDS epidemic.

WHAT WE FOUND

The Ministry did not always manage PEPFAR funds or meet program goals in accordance with
award requirements. With respect to financial management, specifically financial transaction
testing, $225,454 of the $516,029 reviewed was allowable, but $290,575 was not. Of the 33
financial transactions tested:

   •   16 transactions totaling $225,454 were allowable but

   •   17 transactions totaling $290,575 were unallowable because they lacked adequate
       supporting documentation or were related to another cooperative agreement.


   Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                            i
Additionally, the Ministry:

   •   did not maintain accounting records that adequately identified the source and application
       of PEPFAR funds,

   •   did not report expenditures for this cooperative agreement on its Financial Status Report
       (FSR),

   •   submitted its FSR 1 month late,

   •   used an undetermined amount of PEPFAR funds to pay value-added taxes (VAT) on
       expenditures, and

   •   did not have an annual financial audit completed and the report submitted on time as
       required by United States Government (Federal) regulations.

Our program management review showed that, of the 81 goals from its cooperative agreement,
the Ministry reported accomplishments for 53 in its annual progress report. However, it did not
report accomplishments for the remaining 28 goals. Our sample review of 38 reported
accomplishments showed that 27 were fully supported by documentation, 4 were partially
supported, and 7 were not supported. Also, the Ministry submitted its annual progress report to
CDC 1 month late.

The Ministry has policies and procedures pertaining to the Republic of Zambia. However, these
policies and procedures were not adequate for managing CDC cooperative agreements. As a
result, the Ministry did not exercise proper stewardship to ensure that it properly managed
PEPFAR funds or met program goals in accordance with the award requirements.

WHAT WE RECOMMEND

We recommend that the Ministry:

   •   refund to CDC $290,575 of unallowable expenditures;

   •   work with CDC to resolve whether VAT was an allowable expenditure under the
       cooperative agreement;

   •   apply for a VAT exemption with the Republic of Zambia Government;

   •   file an amended FSR using expenditures instead of draws from the Payment Management
       System;




   Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                             ii
   •   develop and implement policies and procedures for:

           o submitting the FSR in a timely manner based on expenditures,

           o reconciling the FSR to the accounting records prior to submission,

           o maintaining adequate supporting documentation for expenditures of Federal
             funds, and

           o submitting the annual progress report in a timely manner with all goals addressed
             and supported;

   •   implement a financial management system that complies with Federal regulations such as
       adequately identifying the source and application of PEPFAR funds and allocating salary
       expenses based on detailed payroll records; and

   •   submit an annual financial audit report on time to the applicable Federal agency.

REPUBLIC OF ZAMBIA, MINISTRY OF HEALTH, COMMENTS
AND OUR RESPONSE

In comments on our draft report, Ministry officials partially agreed with our findings but did not
directly address our recommendations. They also described actions they had taken.

We reviewed the explanations provided in the Ministry’s comments. The explanations did not
cause us to change any of our findings or recommendations, and the Ministry did not provide any
additional supporting documentation with its comments. Therefore, we maintain that our
findings and recommendations are valid and continue to recommend that the Ministry refund
$290,575 in unallowable expenditures.




  Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                            iii
                                                    TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................ 1

          Why We Did This Review ................................................................................................ 1

          Objective ........................................................................................................................... 1

          Background ....................................................................................................................... 1
                Centers for Disease Control and Prevention ......................................................... 1
                Application of Federal Regulations ...................................................................... 2
                Republic of Zambia, Ministry of Health ............................................................... 2

          How We Conducted This Review..................................................................................... 2

FINDINGS………………. ........................................................................................................... 3

          Financial Management ...................................................................................................... 4
                 Inadequate Accounting Records and
                   Inaccurate Financial Status Report .................................................................... 4
                 Financial Transactions Were Not Adequately Supported ..................................... 4
                 Expenditures for Value-Added Tax Are Potentially Unallowable ....................... 5

          Program Management………………. .............................................................................. 6
                Some Accomplishments in the Progress Report Were Not
                  Supported and Reported ..................................................................................... 6
                Progress Report Was Submitted Late ................................................................... 6

          Non-Federal Audit Report Requirements Not Met ........................................................... 7

          Lack of Policies and Procedures ....................................................................................... 7

RECOMMENDATIONS .............................................................................................................. 8

REPUBLIC OF ZAMBIA, MINISTRY OF HEALTH, COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE ................................................................... 9

          Republic of Zambia, Ministry of Health, Comments ....................................................... 9

          Office of Inspector General Response ............................................................................ 10




   Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                                                              iv
APPENDIXES

      A: Related Office of Inspector General Reports ............................................................ 11

      B: Audit Scope and Methodology ................................................................................. 12

      C: Federal Requirements ............................................................................................... 14

      D: Republic of Zambia, Ministry of Health, Comments ............................................... 16




  Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                                              v
                                                 INTRODUCTION

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs implemented under the Act,
including PEPFAR. To meet this requirement, HHS OIG has conducted a series of audits of
organizations receiving PEPFAR funds from HHS, Centers for Disease Control and Prevention
(CDC). 1

We selected the Republic of Zambia, Ministry of Health (the Ministry), for review.

OBJECTIVE

Our objective was to determine whether the Ministry managed PEPFAR funds and met program
goals in accordance with the award requirements.

BACKGROUND

Centers for Disease Control and Prevention

The Act gives CDC a leadership role in several key areas of research and evaluation in
implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other public health partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

For fiscal year (FY) 2010, CDC obligated 2 PEPFAR funds totaling $1.1 billion. CDC awarded
these PEPFAR funds through cooperative agreements, which it uses in lieu of grants when it




1
    Appendix A contains a list of related OIG reports.
2
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period, per HHS’s Grants Policy Directive 1.02, which is the highest level of
policy within HHS that governs grants.



Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                                  1
anticipates the Federal Government’s substantial involvement with recipients in accomplishing
the objectives of the agreements. 3 In response to a Funding Opportunity Announcement (FOA), 4
CDC awarded the Ministry grant number 5U2GPS001792 through a cooperative agreement for
the project period September 30, 2009, through September 29, 2014.

Application of Federal Regulations

The grant administration rules in 45 CFR part 92 apply to State, local, and tribal governments.
The grant administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals,
institutions of higher education, and commercial organizations. The HHS Grants Policy
Statement (GPS), which provides general terms and conditions and HHS policies for grantees
and others interested in the administration of HHS grants, specifies that foreign grantees must
comply with the requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign
organization (GPS section II-113). Thus, the rules in 45 CFR part 92 apply to a foreign
governmental entity.

Republic of Zambia, Ministry of Health

The Ministry’s mission is to provide equitable access to affordable, accessible, quality health
services. The Ministry entered into a cooperative agreement with CDC to implement a
coordinated national response to the HIV/AIDS epidemic. Specifically, the goals of the
cooperative agreement were to strengthen the Ministry’s capacity to:

       •   deliver voluntary counseling and testing;

       •   support prevention of mother-to-child transmission of HIV;

       •   provide HIV/AIDS-related surveillance; and

       •   provide comprehensive HIV/AIDS care, including anti-retroviral therapy.

HOW WE CONDUCTED THIS REVIEW

Our audit covered the budget period from September 30, 2010, through September 29, 2011.
This budget period was the second year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded the Ministry $3,705,000.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

3
    The regulations that apply to Federal grants also apply to cooperative agreements.
4
  FOA number CDC-RFA-PS09-9121 is entitled Strengthening the Zambian Ministry of Health’s (MOH) Response
to the HIV/AIDS Epidemic through Capacity Building Support and Technical Assistance Provision within Multiple
Program Areas in the Government of the Republic of Zambia (GRZ) under the President’s Emergency Plan for
AIDS Relief (PEPFAR).


Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                             2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains
Federal requirements.

                                                   FINDINGS

The Ministry did not always manage PEPFAR funds or meet program goals in accordance with
award requirements. With respect to financial management, specifically financial transaction
testing, $225,454 of the $516,029 reviewed was allowable, but $290,575 was unallowable. Of
the 33 financial transactions tested:

    •    16 transactions totaling $225,454 were allowable but

    •    17 transactions totaling $290,575 were unallowable because they lacked adequate
         supporting documentation or were related to another cooperative agreement.

Additionally, the Ministry:

    •    did not maintain accounting records that adequately identified the source and application
         of PEPFAR funds,

    •    did not report PEPFAR expenditures for this cooperative agreement on its Financial
         Status Report (FSR) submitted to CDC,

    •    submitted its annual FSR 1 month late,

    •    used an undetermined amount of PEPFAR funds to pay potentially unallowable value-
         added taxes (VAT) on purchases, and

    •    did not have an annual financial audit completed and the report submitted on time as
         required by United States Government (Federal) regulations.

Our program management review showed that, of the 81 goals from its cooperative agreement,
the Ministry reported accomplishments for 53 in its annual progress report. 5 However, it did not
report accomplishments for the remaining 28 goals. Our sample review of 38 reported
accomplishments showed that 27 were fully supported by documentation, 4 were partially
supported, and 7 were not supported. Also, the Ministry submitted its annual progress report to
CDC 1 month late.



5
 Recipients are required to submit an annual progress report that should contain for each grant or cooperative
agreement information on the comparison of actual accomplishments to objectives established for the period
(45 CFR § 92.40(b)(2)).



Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                              3
The Ministry has policies and procedures pertaining to the Republic of Zambia. However, these
policies and procedures were not adequate for managing CDC cooperative agreements. As a
result, the Ministry did not exercise proper stewardship to ensure that it properly managed
PEPFAR funds or met program goals in accordance with the award requirements.

FINANCIAL MANAGEMENT

Inadequate Accounting Records and Inaccurate Financial Status Report

Grantees must maintain records that adequately identify the source and application of funds
provided for financially assisted activities (45 CFR § 92.20(b)(2)), and their financial
management reporting system must be able to demonstrate an accurate, current, and complete
disclosure of the financial results of grant-funded activities (45 CFR § 92.20(b)(1)).

Recipients must submit an FSR no later than 90 calendar days after the end of the specified
report period for annual reports (45 CFR §§ 92.41(b)(1) and (b)(4)). The Notice of Award
(NOA) provides the specific due dates for the FSR.

The Ministry was unable to accurately identify in its accounting records the expenditures related
to this cooperative agreement. The Ministry recorded expenditures for multiple CDC
cooperative agreements in an Excel spreadsheet outside of its automated accounting system and
did not use an indicator to identify which CDC cooperative agreement was the funding source
for the expenditures. The Ministry said that it did not record CDC funds in its accounting system
because CDC did not provide funds for the purchase of the accounting system. We found no
evidence that the Ministry had requested funds from CDC for this activity.

In addition, the Ministry submitted an inaccurate FSR. Instead of reporting expenditures on the
FSR, it reported the amount of funds drawn down from the Payment Management System
(PMS). Also, the Ministry did not meet the 90-day Federal requirement for submitting its annual
FSR, which was submitted to CDC 1 month late.

The Ministry did not have adequate controls in place to accurately track and report PEPFAR
expenditures. Without adequate accounting records, the Ministry could not manage PEPFAR
funds, and CDC could not effectively monitor current or future cooperative agreements.

Financial Transactions Were Not Adequately Supported

Accounting records must be supported by source documentation such as canceled checks, paid
bills, payrolls, time and attendance records, and contract and subgrant award documents (45 CFR
§ 92.20(b)(6)). Also, charges to awards for salaries and wages will be based on documented
payrolls approved by a responsible official of the governmental unit (2 CFR part 225,
Appendix B, § 8.h(1)).

In the absence of a functioning system to identify the expenditures by funding source, the
Ministry provided a list of expenses that it claimed it had charged to the cooperative agreement.
We did not examine how the Ministry developed its list. From this list, we selected 33


Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                 4
transactions totaling $516,029 for testing. Of these 33 transactions, 16 totaling $225,454 were
allowable, but 17 transactions totaling $290,575 were unallowable. For the 17 unallowable
transactions:

      •    Nine transactions totaling $161,720 related to the cooperative agreement but had no
           supporting documentation: seven transactions for salaries totaling $121,383 were not
           supported by detailed payroll records, and two transactions for training totaling $40,337
           were not supported by invoices or purchase orders.

      •    Seven transactions totaling $102,133 related to another cooperative agreement: four
           transactions for salaries totaling $26,487, two transactions for computer and laboratory
           equipment totaling $37,935, and one transaction for a vehicle purchase totaling $37,711.

      •    One transaction totaling $26,722 was a bank transfer for which the Ministry could not
           provide either supporting documentation or an explanation.

The Ministry lacked policies and procedures to maintain adequate documentation supporting
expenditures or to properly identify the funding source for expenditures. This lack of policies
and procedures increases the risk of funds being mismanaged or misappropriated.

Expenditures for Value-Added Tax Are Potentially Unallowable

Certain costs, including VAT, 6 are unallowable under foreign grants and domestic grants with
foreign components. Also, bilateral agreements with foreign governments may stipulate an
exemption from paying VAT for those contractors and grantees that are funded by the United
States and providing foreign aid (GPS section II-114)). 7

During the audit period, the Ministry used PEPFAR funds to pay VAT, a potentially unallowable
cost for this cooperative agreement. However, we were not able to determine the amount of
VAT that the Ministry paid during the audit period because of the way it documented VAT on
invoices. Some sampled invoices included a statement that the total paid either included or
excluded VAT, but other invoices did not indicate whether VAT was charged. Specifically, for
the eight sampled invoices for purchases:

      •    two included VAT totaling $2,006;

      •    two stated that VAT was included, but the total amount could not be determined;

      •    one stated that VAT was excluded; and

      •    three did not indicate whether VAT was charged.


6
    VAT is a form of consumption tax.
7
 HHS is currently reexamining the applicability of the GPS provision; thus, we are not recommending a
disallowance. Instead, we recommend that the Ministry work with CDC to resolve the issue.


Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                     5
The Ministry stated that it had not applied for a VAT exemption from the Republic of Zambia
Government and did not provide a reason for not submitting an application.

PROGRAM MANAGEMENT

Some Accomplishments in the Progress Report Were Not Supported and Reported

Progress reports should contain a comparison of actual accomplishments to the objectives
established for the period and should contain the reasons that any established objectives were not
met (45 CFR § 92.40(b)(2)). Grantees are required to retain financial and programmatic records
and supporting documents (45 CFR § 92.42).

Our program management review showed that, of the 81 goals from its cooperative agreement,
the Ministry reported accomplishments for 53 in its annual progress report. However, it did not
report accomplishments for the remaining 28 goals. 8 Our sample review of 38 reported
accomplishments included in the progress report showed that 27 were fully supported by
documentation, 4 were partially supported, and 7 were not supported.

    •    The four partially supported accomplishments were for quarterly tuberculosis/HIV
         meetings, information technology and continuing medical education training, and
         procurement of equipment. For example, the Ministry provided supporting
         documentation for some of the continuing medical education training sessions but could
         not support all trainings that were part of the sample item.

    •    The seven unsupported accomplishments consisted of the following types of activities:
         developing national guidelines for HIV counseling and testing, training healthcare
         workers, and conducting supervision visits.

The Ministry lacked policies and procedures for reporting its annual progress. This lack of
policies and procedures led to missing or inadequate documentation to support the progress
included in the progress report. It also led to the Ministry not reporting progress for some goals.

As a result, CDC did not have sufficient information to focus its monitoring efforts or to assist
the Ministry in achieving the goals of the cooperative agreement.

Progress Report Was Submitted Late

Recipients are required to submit annual progress reports 90 days after the end of the grant year
(45 CFR § 92.40(b)(1)). The NOA provides the specific due dates for progress reports. 9 The
8
  The Ministry excluded eight goals because they related to restricted funds. Restricted funds are for costs about
which the awarding agency needs additional information or for which additional requirements must be met by the
recipient prior to the recipient spending or engaging in any activity associated with that funding (CDC’s Grantee’s
Financial Reference Guide for Managing CDC Grants & Cooperative Agreements, page 6).
9
 The grant rules allow for extensions of progress report due dates and waivers in some instances, at the agency’s
discretion (45 CFR § 92.40(b)(1)).



Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                                   6
Ministry submitted its progress report to CDC a month after the due date. The report was late
because the Ministry’s field offices did not submit data to the Ministry on time. Also, staff
turnover affected preparation of the progress report. The Ministry lacked policies and
procedures to ensure that it submitted its progress report on time, such as policies requiring field
offices to report progress data to the Ministry by certain dates and procedures ensuring continuity
of operations during staff turnover.

Without progress reports, CDC could not determine whether the recipient met program goals in
accordance with award requirements.

NON-FEDERAL AUDIT REPORT REQUIREMENTS NOT MET

Foreign recipients are subject to the same audit requirements as commercial organizations
specified in 45 CFR § 74.26(d) (GPS section II-115). Recipients that are commercial
organizations are required to file one of the following types of audits if they expended more than
$500,000 in one or more Federal awards during a FY: a financially related audit or an audit that
meets the requirements of Office of Management and Budget (OMB) Circular A-133 (45 CFR
§ 74.26(d)(1)).

Audits must be completed annually and submitted for review within the earlier of 30 days after
receipt of the auditor’s report or 9 months after the end of the organization’s FY, unless a longer
period of time is agreed to by the agency (OMB Circular A-133 subpart B §__.200 and subpart
C §__.320). 10

At the time of our review, the last independent audit performed of the Ministry was for calendar
year 2010. 11 The Ministry did not meet the award requirements because it did not have an
annual financial audit finalized and submitted to the National External Audit Resolution Agency
(NEAR) by the due date. Ministry officials did not provide a reason for not having a timely
audit conducted. However, they did state that they were not aware that the report needed to be
submitted to NEAR.

Without a timely annual audit report, CDC could not monitor the audit findings and assess the
risk of awarding the Ministry additional funds.

LACK OF POLICIES AND PROCEDURES

The Ministry has policies and procedures pertaining to its interaction with the Republic of
Zambia. However, these policies and procedures were not adequate for managing CDC
cooperative agreements because they did not ensure that the Ministry:

10
  If a foreign entity chooses to have a financial-related audit pursuant to 45 CFR § 74.26(d), the same due dates
apply. (See Clarification of Audit Requirements of For-Profit Organizations Including SBIR/STTR Grantees, issued
by the HHS National Institutes of Health, Jan. 11, 2006).
11
  CDC obtained an independent financial audit and a needs assessment review of PEPFAR funds for the Ministry.
These audits covered the period September 30, 2009, through September 29, 2011. The final reports were issued in
November 2012. CDC did not intend for these audits to replace the Ministry’s audit requirement.



Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                                7
    •   maintained adequate supporting documentation for expenditures,

    •   maintained accounting records that identified the source and application of PEPFAR
        funds,

    •   submitted its FSR accurately and on time,

    •   submitted a progress report on time that included all goals and was adequately supported,
        and
    •   had an annual audit performed and submitted the report on time to the NEAR.

                                      RECOMMENDATIONS

We recommend that the Ministry:

    •   refund to CDC $290,575 of unallowable expenditures;

    •   work with CDC to resolve whether VAT was an allowable expenditure under the
        cooperative agreement;

    •   apply for a VAT exemption with the Republic of Zambia Government;

    •   file an amended FSR using expenditures instead of draws from the PMS;

    •   develop and implement policies and procedures for:

            o submitting the FSR in a timely manner based on expenditures,

            o reconciling the FSR to the accounting records prior to submission,

            o maintaining adequate supporting documentation for expenditures of Federal
              funds, and

            o submitting the annual progress report in a timely manner with all goals addressed
              and supported;

    •   implement a financial management system that complies with Federal regulations such as
        adequately identifying the source and application of PEPFAR funds and allocating salary
        expenses based on detailed payroll records; and

    •   submit its annual financial audit report on time to the applicable Federal agency.




Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                               8
REPUBLIC OF ZAMBIA, MINISTRY OF HEALTH, COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

Republic of Zambia, Ministry of Health, Comments

In comments on our draft report, Ministry officials partially agreed with our findings but did not
directly address our recommendations. They also described actions they had taken.

Ministry officials partially concurred with our finding regarding $290,575 of unallowable
expenditures that were not adequately supported or related to the cooperative agreement. For the
unallowable salary expenditures, they partially concurred. The officials stated that they had
contracts for the project staff but admitted that they did not have documentation required to
certify the level of effort until they introduced timesheets in 2012. Regarding unallowable
training expenditures, Ministry officials concurred that supporting documentation was
misplaced. For expenditures related to another cooperative agreement, Ministry officials
partially concurred, stating that they placed funds for two CDC cooperative agreements in one
bank account and that the funds in question were used for budgeted activities under the Avian
Influenza cooperative agreement.

Ministry officials concurred with our finding regarding VAT. They stated that $55,497 was
deducted from their 2012–2013 award as penalty for paying VAT expenses with PEPFAR funds
and that they will ensure that a VAT exempt certificate is obtained for future PEPFAR funds
received.

Ministry officials concurred with our findings regarding its inadequate accounting records and
inaccurate FSR. They stated that in December 2012 they began including cooperative agreement
funds in their Integrated Financial Management System to ease tracking and monitoring of
activities and to clearly identify the source of funds. In addition, Ministry officials said that they
would open separate bank accounts for the two CDC cooperative agreements. Furthermore, they
said that they hired a full-time accountant for the cooperative agreement and are submitting FSRs
timely.

Ministry officials partially concurred with our findings regarding partially supported and
unsupported accomplishments in the progress report. In their comments, they described
documentation that they said was available. Also, Ministry officials said that they had
government systems in place to ensure that activity reports were submitted timely but that they
did not have dedicated project management during the audit period. They concurred with our
finding that they had submitted their progress report late.

In addition, Ministry officials concurred with our finding that they had not submitted the annual
financial audit report on time to the applicable Federal agency and described the actions they had
taken.

Ministry officials said, in some instances, that additional documentation was available but did
not provide it. The Ministry’s comments are included in their entirety as Appendix D.




Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                  9
Office of Inspector General Response

We reviewed the explanations provided in the Ministry’s comments. The explanations did not
cause us to change any of our findings or recommendations.

Although the Ministry stated in its comments, under the financial transactions section 2.3 and the
project management sections 1.1 and 1.2, that additional documentation was available for
review, we gave the Ministry opportunities to provide supporting documentation both during our
review and with its comments on our draft report. However, the Ministry did not provide any
additional supporting documentation.

Therefore, we maintain that our findings and recommendations are valid and continue to
recommend that the Ministry refund $290,575 in unallowable expenditures.




Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                             10
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                        Report Title                                  Report Number   Date Issued
   Aurum Institute for Health Research Did Not Always                 A-05-12-00021     8/2013
   Manage President’s Emergency Plan for AIDS Relief
   Funds or Meet Program Goals in Accordance With
   Award Requirements
   The South African National Department of Health Did                A-05-12-00022     8/2013
   Not Always Manage the President’s Emergency Plan
   for AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements
   The Southern African Catholic Bishops’ Conference                  A-05-12-00023     7/2013
   AIDS Office Generally Managed the President’s
   Emergency Plan for AIDS Relief Funds and Met
   Program Goals in Accordance With Award
   Requirements
   The Vietnam Administration for HIV/AIDS Control Did                A-06-11-00057     6/2013
   Not Always Manage the President’s Emergency Plan
   for AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements
   The Centers for Disease Control and Prevention’s                   A-04-12-04023     4/2013
   Vietnam Office Generally Monitored Recipients’ Use
   of the President’s Emergency Plan for AIDS Relief
   Funds
   Potentia Namibia Recruitment Consultancy Generally                 A-06-11-00056     4/2013
   Managed the President’s Emergency Plan for AIDS
   Relief Funds and Met Program Goals in Accordance
   With Award Requirements
   The Centers for Disease Control and Prevention’s                   A-04-12-04022     2/2013
   South Africa Office Did Not Always Properly Monitor
   Recipients’ Use of the President’s Emergency Plan for
   AIDS Relief Funds
   The Republic of Namibia, Ministry of Health and                    A-04-12-04019     1/2013
   Social Services, Did Not Always Manage the
   President’s Emergency Plan for AIDS Relief Funds or
   Meet Program Goals in Accordance With Award
   Requirements
   The Centers for Disease Control and Prevention’s                   A-04-12-04020    11/2012
   Namibia Office Did Not Always Properly Monitor
   Recipients’ Use of the President's Emergency Plan for
   AIDS Relief Funds
   Review of the Centers for Disease Control and                      A-04-10-04006     6/2011
   Prevention’s Oversight of the President’s Emergency
   Plan for AIDS Relief Funds for Fiscal Years 2007
   Through 2009


Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                 11
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the budget period from September 30, 2010, through September 29, 2011.
This budget period was the second year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded the Ministry $3,705,000.

We limited our review of internal controls to those related to our objective. We conducted
fieldwork at the Ministry’s offices in Lusaka, Zambia, from January through February 2013.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
         the Ministry’s policies and procedures;

     •   interviewed and conducted meetings with CDC Zambia officials to determine the extent
         of the technical assistance they provided to the Ministry;

     •   interviewed and conducted meetings with Ministry officials to determine their policies,
         processes, and procedures related to financial accounting and reporting and program
         goals and accomplishments;

     •   attempted to reconcile the Ministry’s FSR 12 to its accounting records;

     •   selected and reviewed a judgmental sample of 33 financial transactions with expenditures
         totaling $516,029 from the grant award of $3,705,000 and included expenditures such as:

             o transactions that may include restricted funds,

             o transactions above or below the average transaction amount in an expenditure
               category, and

             o other unusual transactions;

     •   attempted to identify VAT that the Ministry paid with PEPFAR funds;

     •   compared the accomplishments described in the Ministry’s annual progress report to the
         cooperative agreement’s goals;



12
  FSRs are due to the CDC Grants Management Office 90 days after the end of the budget period (45 CFR
§ 92.41(b)(4)). FSRs provide information to CDC on current expenditures and on carryover balances (if any). In
addition, these documents are considered in future funding decisions.


Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                              12
    •   selected a judgmental sample of 38 accomplishments described in the Ministry’s annual
        progress report and reviewed supporting documentation to determine whether the
        Ministry met program goals; and

    •   reviewed reports dated November 2012 of the independent financial audit and a needs
        assessment review that CDC had performed of PEPFAR funds for the Ministry covering
        the period September 30, 2009, through September 29, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                           13
                         APPENDIX C: FEDERAL REQUIREMENTS

Application of Federal Regulations

The grant administration rules in 45 CFR part 92 apply to State, local, and tribal governments.
The grant administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals,
institutions of higher education, and commercial organizations. The HHS Grants Policy
Statement (GPS), which provides general terms and conditions and HHS policies for grantees
and others interested in the administration of HHS grants, specifies that foreign grantees must
comply with the requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign
organization (GPS section II-113). Thus, the rules in 45 CFR part 92 apply to a foreign
governmental entity.

2 CFR part 225, Appendix B, § 8.h(1)

“Charges to Federal awards for salaries and wages ... will be based on payrolls ... approved by a
responsible official(s) of the governmental unit.”

45 CFR § 74.26(d)(1)

Recipients and subrecipients that are commercial organizations (including for-profit hospitals)
have two options regarding audits: a financially related audit or an audit that meets the
requirements of OMB Circular A-133.

45 CFR § 92.20(b)(1)

A grantee’s financial management reporting system must be able to demonstrate an accurate,
current, and complete disclosure of the financial results of grant-funded activities in accordance
with the financial reporting requirements of the grant.

45 CFR § 92.20(b)(2)

“Grantees and subgrantees must maintain records which adequately identify the source and
application of funds provided for financially-assisted activities.”

45 CFR § 92.20(b)(6)

“Accounting records must be supported by such source documentation as cancelled checks, paid
bills, payrolls, time and attendance records, contract and subgrant award documents, etc.”

45 CFR § 92.40(b)(1)

Recipients are required to submit annual progress reports, unless the awarding agency requires
quarterly or semiannual reports. Annual reports are due 90 days after the end of the grant year.
Quarterly and semiannual reports are due 30 days after the reporting period. Final progress
reports are due 90 days after the expiration or termination of the award.



Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                                14
45 CFR § 92.40(b)(2)

Progress reports should contain a comparison of actual accomplishments to the objectives
established for the period. Also, progress reports should contain the reasons that any established
objectives were not met and additional pertinent information, including, when appropriate,
analysis and explanation of cost overruns or high unit costs.

45 CFR §§ 92.41(b)(1) and (b)(4)

Recipients must submit an FSR no later than 30 days after the end of each specified report period
for quarterly and semiannual reports and 90 calendar days after the end of the specified report
period for annual and final reports. A final report is due 90 days after the expiration or
termination of the award.

45 CFR § 92.42(a)-(c)

Grantees are required to retain financial and programmatic records and supporting documents,
both those required by the grant agreement and those “[o]therwise reasonably considered as
pertinent to program regulations or the grant agreement,” for 3 years from the submission date of
the final expenditure report for the funding period.

OMB Circular A-133

Audits must be completed annually and submitted for review within the earlier of 30 days after
receipt of the auditor’s report or 9 months after the end of the organization’s FY, unless a longer
period of time is agreed to by the agency (subpart B §__.200 and subpart C §__.320).

HHS Grants Policy Statement, Section I-36

Except as indicated in this section, grant payments are made by the PMS, operated by HHS’s
Department of Payment Management, in accordance with Department of the Treasury and OMB
requirements, as implemented by 45 CFR §§ 74.22 and 92.21.

HHS Grants Policy Statement, Section II-114

“Customs and import duties. These costs, which include consular fees, customs surtax, value-
added taxes, and other related charges, are unallowable under foreign grants and domestic grants
with foreign components.”

HHS Grants Policy Statement, Section II-115

Foreign recipients are subject to the same audit requirements as commercial organizations
(specified in 45 CFR § 74.26(d)).




Audit of the Zambia Ministry of Health PEPFAR Funds (A-04-13-04004)                               15
          APPENDIX D: REPUBLIC OF ZAMBIA MINISTRY OF HEALTH COMMENTS 



                                                                                  In reply please quore
 All Correspondet~ce should be addressed to the
 Permanent Secretary                                                              No...
 Telephone: +260 1 253040/5
 Fax: +260 I 253344
                                                  REPUBLIC OF ZA!\1BIA
                                            MINISTRY OF HEALTHMH/71/22/1          NDEKE HOUSE
                                                                                  P. 0. BOX 30205
                                                                                  LUSAKA

    31st March, 2014

    HHS Resolution Official 

    Department of Human Services 

    ASFR/Office of Finance, Division of Systems 

    Policy and Audit Resolution. 



    Dear Sir/Madam,

    Re: 	     Responses to office of Inspector General {OIG) - Report Number A-04­
              13-04004 




    Reference is made to the above subject matter.

   The Mmistry of Health received a draft audit report number A-04-13-04004 dated
   February 27, 2014 on Thursday, March 6, 2014 through CDC Zambia. This draft audit
   report was for the period September 30, 2010, through September 29, 2011 that was
   reviewed.

   The Ministry has since worked on the responses. We have attached the management
   responses.


    Sincerely,


   o1yi.'                        ~    9
    Dr. Davy     Mi~ikamato
    Permanent Secretary
    {Principal Investigator)




Audit ofthe Zambia Ministry ofHealth PEPFAR Funds (A -04-13-04004)                        16
  Responses to the OIG Draft Report Number- A-04-13-04004

  1.. 	 Findings on Inadequate Accounting Records and Inaccurate Financial
        Status Report

     1..1..    Finding 1.- Accounting records
     Management Resoonse 

     The Ministry of Health concurs with the findi ng. 


     We wish to state that going forward the CDC funds have been clearly profiled in the
     Integrated Financial Management System (IFMIS). This is a system designed to help
     the Government of the Republic of Zambia (GRZ) plan and use its financial
     resources more efficiently and effectively. The CDC funds were profiled in December
     2012. This therefore entails that all activiti es implemented on this Cooperative
     Agreement (CoAg) relate to the application budget and Award received. This will
     ease tracking and monitoring of activities and the source of funds clearly identified.

     1..2.  Finding 2 - PEPFAR exoenditures recorded
     Management Resoonse

        The Ministry of Health concurs with the finding.
     i.    The Ministry maintains one bank account for fund received under the two CoAgs
           and hence one cash book is maintained. We wish to state that the Ministry is
           able to track expenditure relating to each respective CoAg despite using one
           cashbook and bank account.
   ii.     We wish to state that the expenditures reported in the Financial Status Report
           (FSR) related to the period under review for the HIV/TB CoAg. The expenditures
           sampled from the cashbook for the exercise were for the two CoAgs supported
           by funds received in respect the Avian Influenza and HIV/TB Cooperative Notice
           of Awards (NOA). The Ministry will ensure that a separate bank account will be
           opened for the Avian Influenza Cooperative Agreement.
  iii.     The Ministry of Health concurs with the finding that there was no automated
           accounting system used to record these funds/activities for the period under
           review.
           An accounting package was supposed to be procured but the Ministry did not
           budget for it in the application for the 2010/2011 budget period. However, it is
           now mandatory for all funds that are received by Government institutions to be
           included in the IFMIS System. The CDC funds are now profiled on the GRZ
           accounting system and the activities are now processed through it. This will ease
           tracking and monitoring of activities and the source of funds clearly identified.




Audit of the Zambia M inistry ofHealth PEPFAR Funds (A -04- 13-04004)                          17
      1.3.     Finding 3 - Inaccurate and Late Submission of the Financial
          Status Report( FSRJ 

      Management response 


      The Ministry of Health concurs with the finding.

    i. 	   We wish to state that the CDC/MoH CoAg had no Accountant in place and the
           accounting work was being done by GRZ accounting staff. This therefore resulted
           in the delayed submission of the Financial Status report for the period under
           review. The Ministry has since employed a full time Accountant for the CoAg and
           FSR submission have been made in good time.
   ii. 	   The Ministry had obligations made during the budget period and were
           unliquidated by the end of the Financial Year. The Ministry reported the total
           outlays and unliquidated obligations in the FSR reviewed. The Ministry had in
           mind the 90 days grace period after the end of the Financial Year as sufficient
           time in which all unliquidated funds would be expended. Going forward, the
           Ministry will ensure that only actual expended amounts will be reported in the
           FSR.

 2. Findings on Financial Transactions were not Adequately Supported:
    Financial transactions relating to Pavro/1 and training.
    2.1.     Finding- Pavroll

     Management Response
     The Ministry partially concu rs with the finding.

     The MoH/CDC Cooperative Agreement has project staff working on the project and
     charging their level of effort 100%. It is in this regard that the salaries were paid to
     these project staff for the period under review. The eleven transactions relating to
     the payment of salaries were supported by the Contracts which were fully signed
     and approved by the Controlling officer (Principal Investigator) and these were
     availed to the OIG Auditors during the exercise. The only documents missing to
     support these payments were the level of effort charged sheets (Time sheets). We
     wish to state that the ministry of Health/ CDC Cooperative Agreement staff use GRZ
     policies and Regulations in relation to human resource, procurement and finance.
     The Policy on human resource does not include time sheet clocking. The timesheets
     were however introduced in 2012 and are in use to date.

                                                  2


Audit ofthe Zambia Ministry ofHealth PEPFAR Funds (A-04-13-04004)                               18
     2.2.        Finding -Training

     Management Resoonse
     The Ministry concurs with the finding.

     The Ministry of Health had several audits undertaken during the exercise for the
     alleged misappropriation of funds under the Global Fund project. The Office of the
     Auditor General issued a directive that all Donor funded projects be audited and CDC
     was among these. It is during this exercise that some documentation was
     misplaced. The Ministry will however, get in touch with the vendo rs so that copies of
     invoices are retrieved for the purchase made or services offered specifically to the
     one transaction totaling $26,722 which the Ministry could not provide supporting
     documentation. We wish to state that once the documentation is retrieved, it will be
     made available for further scrutiny.



     2.3. 	    Findin g - Other Cooperative Agreement Transactions (AVIAN
         Influenza Research Program me) Pa yroll, purchase of equipment and a
         motor vehicle

     Management Response
     We partially concur with the finding.

     The two Cooperative Agreements supported by CDC/PEPFAR receive funds in one
     bank account that is maintained with one of the local banks. The funds are solely
     used for the budgeted activities. The transactions queried under the Avian Influenza
     Cooperative Agreement relate to the funds applied and disbursed for implementing
     these budgeted activities. All the seven transactions queried were fully supported
     and availed to the auditor during the exercise. Documentation is available for further
     scrutiny

 3. Findings on Value -Added Tax Are Pot entiall y Unallowable

     3.1.        Finding 3- VAT Payments on purchases

     Management Response
     The Ministry concurs with the finding.


                                                   3


Audit ofthe Zambia Ministry ofHealth PEPFAR Funds (A-04-1 3-04004)                            19
        i.   We wish to state that there was no clear guidance on whether Value Added
             Tax had to be paid on purchases made under the CDC project for this
             particular budget period. The Notice of Award received for the budget period
             was silent on the matter and hence the VAT was paid. The clear guidance on
             VAT was only made in the Notice of Award for the budget period 2012/2013.
       ii.   In August 2013 OGAC imposed a penalty on all USG partners that had paid
             VAT expenses with PEPFAR funds. This was done through a reduction in
             awarded funds at 200% penalty of the VAT total payments. An amount of
             $55,497.48 was deducted from the 2012/2013 Award. Therefore payment to
             the US treasury has been done.
      iii.   The Ministry will ensure that a VAT exempt certificate is obtained for these
             funds received under PEPFAR

 4. Finding 4 - Annual Financial Audit

     Management Resoonse
     The Ministry concurs that financial audits on the CDC/MoH Cooperative Agreement
     have not been procured in good time as per Notice of Award guidance.

     We wish to state that it is a requirement by GRZ that all Public Institutions be
     audited by the office of the Auditor General Zambia. In this particular case, the
     procurement of the audit for the period under review was delayed due to the long
     processes involved in engaging external auditors through the office of the Office of
     the Auditor General Zambia and the Zambia Public Procurement Authority. The audit
     for the period 2008 through to 2010 was undertaken in 2012 respectively and the
     audit for 2011 and 2012 has since been procured.




                                                  4



Audit ofthe Zambia Ministry ofHealth PEPFAR Funds (A-04-13-04004)                           20
  PROJECT MANAGEMENT AUDIT FINDINGS AND REPONSES

  1. 	Finding 1: Some Accomplishments in the Progress Report were not
      Supported an d Reported.
      The program management review showed that of the 81 goals from its cooperative
      agreement, the ministry reported accomplishments for 53 in its annual progress
      report. However it did not report accomplishments for the remaining 28 goals.

     1.1. Four partially supported accomplishments were for quarterly Tuberculosi s/HIV
          meetings, information technology and continuing medical education training and
          procurement of equipment. For example the Ministry provided some
          documentation of the continuing medical education but could not support all
          trainings that were part of the sample.

     Management Response
     The Ministry partially concurs.

         i.    The TB/HIV Meeting minutes were provided during audit process. These are
               available for review.
        ii.    ICT skills t raining funds were drawn down during the period under audit. The
               scheduling of the courses were outside the control of the Ministry as the staff
               attended training as per provider time table, thus some of documentation
               provided was outside the audit period.
       iii.    Continuing Medical Education training for 120 Health care workers on the
               2010 pedia t ric and adult guidelines orientation were conducted in 3 phases
               dated from 29th Nov-4th Dec, 2010; 6-11 Dec, 2010 and 19-24th Dec, 2010.
               Reports are available for review.
      iv.      Documentation for procurement of equipment will be provided and responded
               to under financial management audit findings

     1.2. The 	seven unsupported accomplishments consisted of the following types of
         activities" developing national guidelines for HIV counseling and testing, training
         healthcare workers and conducting supervision visits.


     Management Response
     The Ministry partially concurs.

        i. 	   HVTB - TB Infection control guideline; treatment supporter trainer's manual,
               supervision checklist, TB/HIV recording and reporting tools and a MDRTB

                                                    5


Audit ofthe Zambia Ministry ofHealth PEPFAR Funds (A -04-1 3-04004)                              21
               manual as well as the draft of the Isonaizid Preventive Guidelines were
               provided in both soft and hard copies during the audit. They are available for
               review.
       ii.     HVTB- The training for 10 Health Care providers in programmatic
               management of MDRTB in Lesotho took place from 11-20 June 2011. Report
               is available for further scrutiny.
      iii.     PMTCT - The reports for the 2 trainings conducted for Pre- and In-Service
               health care providers in PMTCT are unavailable for audit review.
      iv.      HVOP- National Guidelines for HIV Counseling and Testing. Copies of these
               documents are available for review
       v.      HVOP - 2 reports have been submitted by the program specialists for child
               counseling training courses dated 29th Nov-11 Dec, 2010 and 23 May-sth June
               2010 (the 2nd one which falls outside the scope of the audit period).
      vi.       HVSI M&E - The consolidated report for technical support and supervision
               visits were conducted to all 9 provinces for audit and cleaning of both
               SmartCare and HMIS data are available for review.
     vii.      HXTS - Reports for site supervision and in Northern, Luapula, Western,
               Eastern and Southern Provinces were provided during audit and are available
               for further scruitiny.

     1.3. The Ministry lacked policies 	and procedures for reporting its annual progress.
          This lack of policies and procedures led to missing or inadequate documentation
          to support the progress included in the progress report. It also led to the
          Ministry not reporting progress for some goals

            Management Response
            The Ministry partially concurs.

            Government systems are already in place to ensure activity reports are attached
            to retirement documents for expended funds for internal audit.

            The Ministry however did not have dedicated project management and
            accountant during audit period under review to keep track of support
            documentation attached for activities undertaken.



 2. 	 Finding 2: Progress Reoort Was Submitted Late.

 Recipients are required to submit annual progress reports 90 days after the end of the
 grant year. The NOA provides the specific due dates for the progress reports. The

                                                  6


Audit ofthe Zambia Ministry ofHealth PEPFAR Funds (A-04-13-04004)                               22
 Ministry submitted the progress reports to CDC one month after its due date. The
 report was late because the Ministry's field offices did not submit data to the Ministry on
 time, also staff turnover affected preparation of the progress report. The Ministry lacked
 policies and procedures to ensure that the progress report was submitted on time, such
 as policies requiring field offices to report progress data to the Ministry by certain dates
 and procedures ensuring continuity of operations during staff turnover.

         Management Response
         The Ministry concurs.

         The Ministry did not have dedicated project management and accountant during
         audit period under review. Those duties were undertaken by Government and
         CDC supported staff from other program areas to cover the gap.




                                                  7


Audit ofthe Zambia Ministry ofHealth PEPFAR Funds (A-04-13-04004)                               23
